APPLICATION AND
SOLICITATION
DISCLOSURE
VISA GOLD/VISA CLASSIC

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Gold

10.15%
This APR will vary with the market based on the Prime Rate.
Visa Classic

14.90%

APR for Balance Transfers

Visa Gold
10.15%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

Visa Classic
14.90%
Visa Gold
10.15%
This APR will vary with the market based on the Prime Rate.
Visa Classic
14.90%

Penalty APR and When it Applies

Visa Gold
None
Visa Classic
None

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
1.00% of each multiple currency transaction in U.S. dollars
1.00% of each single currency transaction in U.S. dollars
Up to $10.00
Up to $10.00
SEE NEXT PAGE for more important information about your account.
April 1, 2020
10401000-MXC10-P-1-080817 (MXC101-E)

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases) (including new balance transfers and cash
advances)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 1, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
Other Fees & Disclosures:
Late Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less, if you are 10 or more days late in making a
payment.
Returned Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

April 1, 2020

10401000-MXC10-P-1-080817 (MXC101-E)

